<html>
<title> - REASSESSING SOLITARY CONFINEMENT: THE HUMAN RIGHTS, FISCAL, AND PUBLIC SAFETY CONSEQUENCES</title>
<body><pre>[Senate Hearing 112-879]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-879

REASSESSING SOLITARY CONFINEMENT: THE HUMAN RIGHTS, FISCAL, AND PUBLIC 
                          SAFETY CONSEQUENCES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 19, 2012

                               ----------                              

                          Serial No. J-112-80

                               ----------                              

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                                        S. Hrg. 112-879

REASSESSING SOLITARY CONFINEMENT: THE HUMAN RIGHTS, FISCAL, AND PUBLIC 
                          SAFETY CONSEQUENCES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2012

                               __________

                          Serial No. J-112-80

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PRINTING OFFICE 

 87-630 PDF                    WASHINGTON : 2012 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS AND HUMAN RIGHTS

                    DICK DURBIN, Illinois, Chairman
PATRICK J. LEAHY, Vermont            LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JON KYL, Arizona
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
       Joseph Zogby, Democratic Chief Counsel and Staff Director
                  Walt Kuhn, Republican Chief Counsel




















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    40
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina.......................................................     4
Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    38

                               WITNESSES

Witness List.....................................................    37
Samuels, Charles E., Jr., Director, Federal Bureau of Prisons, 
  Washington, DC.................................................     5
    prepared statement...........................................    44
Epps, Christopher, Commissioner, Mississippi Department of 
  Corrections, Jackson, Mississippi..............................    18
    prepared statement...........................................    54
Haney, Craig, Professor of Psychology, University of California, 
  Santa Cruz, California.........................................    20
    prepared statement...........................................    72
Andrews, Stuart M., Jr., Partner, Nelson Mullins Riley & 
  Scarborough LLP, Columbia, South Carolina......................    22
    prepared statement...........................................    57
Graves, Anthony C., Founder, Anthony Believes, Houston, Texas....    24
    prepared statement...........................................    67
Nolan, Patrick, Justice Fellowship, Lansdowne, Virginia, prepared 
  statement......................................................   105

                       SUBMISSIONS FOR THE RECORD

American Bar Association, statement..............................   116
American Civil Liberties Union, statement........................   124
American Civil Liberties Union of Connecticut, statement.........   139
American Civil Liberties Union of Maine, statement...............   142
New York Civil Liberties Union, statement........................   153
Reverend J. Edwin Bacon, Rector, All Saints Church, Pasadena, 
  California, statement..........................................   160
Professor Angela A. Allen-Bell, Southern University Law Center, 
  Baton Rouge, Louisiana, statement..............................   172
American Academy of Child and Adolescent Psychiatry, Washington, 
  DC, statement..................................................   183
American Correctional Association, Alexandria, Virginia, 
  statement......................................................   186
American Friends Service Committee, Philadelphia, Pennsylvania, 
  statement......................................................   195
American Humanist Organization, Roy Speckhardt, Executive 
  Director, statement............................................   201
American Psychiatric Association, Arlington, Virginia, statement.   203
Amnesty International, statement.................................   207
Arthur Liman Public Interest Program, Yale Law School, statement.   214
Testimony of Marty Beyer, Ph.D., Juvenile Justice Consultant; 
  Sandra Simpkins, Rutgers School of Law, Camden, New Jersey; 
  Laura Cohen, Rutgers School of Law, Newark, New Jersey.........   236
Testimony of Samantha Buckingham, Clinical Professor, Loyola Law 
  School, Los Angeles, California................................   247
California Families to Abolish Solitary Confinement, Los Angeles, 
  California, statement..........................................   254
California Interfaith Campaign on Solitary Confinement, statement   255
California Prison Focus, Oakland, California, statement..........   260
California Public Defenders Association, Sacramento, California, 
  statement......................................................   270
Campaign for the Fair Sentencing of Youth, statement.............   272
Campaign for Youth Justice, statement............................   275
Center for Children's Law and Policy, Washington, DC, statement..   281
Center for Constitutional Rights, New York, New York, statement..   289
Children's Law Center, Inc., Covington, Kentucky, statement......   297
Fred Cohen, LL.B., LL.M., statement..............................   308
Combined statements of several prison inmates....................   314
Hon. John Conyers, Jr., United States House of Representatives, 
  statement......................................................   361
The Correctional Association of New York, New York, New York, 
  statement......................................................   363
Professor Colin Dayan, Vanderbilt University, statement..........   374
Ella Baker Center for Human Rights, Oakland, California, 
  statement......................................................   381
Families Against Mandatory Minimums, Washington, DC, statement...   390
Mothers of Incarcerated Sons Society, Inc., Lori Fender, 
  statement......................................................   392
Stuart Grassian, MD, Chestnut Hill, Massachusetts, statement.....   396
Lisa Guenther, Associate Professor of Philosophy, Vanderbilt 
  University, statement..........................................   405
Delegate Patrick Hope, State of Virginia, statement..............   409
Chad Griffin, President, Human Rights Campaign, statement........   413
Human Rights Coalition Pennsylvania, statement...................   416
Human Rights Defense Center, W. Brattleboro, Vermont, statement..   425
Human Rights First, statement....................................   436
Human Rights Project for Girls, Washington, DC, statement........   442
Human Rights Watch, statement....................................   445
Immigration Equality, New York, New York, statement..............   454
Innocence Project, statement.....................................   456
New York City Jails Action Coalition, New York, New York, 
  statement......................................................   463
Jewish Orthodox Social Justice Movement, Rabbi Shmuly Yanklowitz, 
  Founder and President, statement...............................   466
John Howard Association of Illinois, Chicago, Illinois, statement   468
Just Detention International, statement..........................   476
Justice and Mercy, Strasburg, Pennsylvania, statement............   481
Juvenile Justice Initiative, Evanston, Illinois, statement.......   492
Dr. Terry A. Kupers, MD, MSP, Institute Professor, The Wright 
  Institute, Berkeley, California, statement.....................   495
The Legal Aid Society, Prisoners' Rights Project, New York, New 
  York, statement................................................   502
Maine Council of Churches, statement.............................   513
Maine Prisoner Advocacy Coalition (MPAC), Ellsworth, Maine, 
  statement......................................................   519
Mental Health America, statement.................................   526
Midwest Coalition for Human Rights, statement....................   532
Mothers of Incarcerated Sons Society (M.I.S.S.), statement.......   537
Professor Michael B. Mushlin, Professor of Law, Pace Law School, 
  White Plains, New York, statement..............................   539
National Alliance on Mental Illness (NAMI), Arlington, Virginia, 
  statement......................................................   547
National Association of Criminal Defense Lawyers, Washington, DC, 
  statement......................................................   556
National Association of Evangelicals, Washington, DC, statement..   558
National Association of Social Workers (NASW), Washington, DC, 
  statement......................................................   560
National Center for Lesbian Rights (NCLR), San Francisco, 
  California, statement..........................................   562
National Center for Transgender Equality, statement..............   571
National Coalition to Protect Civil Freedoms, Selkirk, New York, 
  statement......................................................   577
National Gay and Lesbian Task Force, statement...................   587
National Immigrant Justice Center, statement.....................   593
National Latina Institute for Reproductive Health, New York, New 
  York, statement................................................   598
National Religious Campaign Against Torture (NRCAT), statement...   601
New Evangelical Partnership for the Common Good, statement.......   609
Pacific Juvenile Defender Center (PJDC), San Francisco, 
  California, statement..........................................   613
Pennsylvania Institutional Law Project (PILP), Philadelphia, 
  Pennsylvania, statement........................................   616
Physicians for Human Rights (PHR), statement.....................   621
Prisoners' Legal Services of New York, Albany, New York, 
  statement......................................................   627
Rabbis for Human Rights--North America, statement................   639
Kenneth A. Reiter, J.D., Ph.D., Assistant Professor, Department 
  of Criminology, Law, and Society, University of California, 
  Irvine, statement..............................................   641
Professor Laura Rovner, Associate Professor of Law, Director of 
  Clinical Programs, University of Denver, Sturm College of Law, 
  statement......................................................   647
Professor Laura Rovner, Associate Professor of Law, Director of 
  Clinical Programs, University of Denver, Sturm College of Law, 
  additional statement...........................................   655
Hon. Robert C. ``Bobby'' Scott, United States House of 
  Representatives, statement.....................................   658
Dr. Sharon Shalev, University of Oxford Centre for Criminology, 
  Oxford, United Kingdom, statement..............................   661
Federal Bureau of Prisons Responses to Information Requests......   666
Solitary Watch, Washington, DC, statement........................   679
Tamms Year Ten, statement........................................   683
United Methodist Church, statement...............................   693
Uptown People's Law Center, statement............................   695
Urban Justice Center, New York, New York, statement..............   701
Vera Institute of Justice, New York, New York, statement.........   711
Virginia Council of Churches, statement..........................   725
Women's Refugee Commission Statement, statement..................   730
Youth Law Center, San Francisco, California, statement...........   733

 
REASSESSING SOLITARY CONFINEMENT: THE HUMAN RIGHTS, FISCAL, AND PUBLIC 
                          SAFETY CONSEQUENCES

                              ----------                              


                         TUESDAY, JUNE 19, 2012

                                       U.S. Senate,
 Subcommittee on the Constitution, Civil Rights, and Human 
                                                    Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Franken, and Graham.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good morning. This hearing of the 
Subcommittee on the Constitution, Civil Rights, and Human 
Rights will come to order. Today's hearing is entitled 
``Reassessing Solitary Confinement: The Human Rights, Fiscal, 
and Public Safety Consequences.'' In a moment, I will be joined 
by Senator Graham, who is running a bit late this morning. He 
is the Subcommittee Ranking Member, and he will make an opening 
statement when he arrives.
    First, I want to note there is significant interest in 
today's hearing. For those who have not been able to get a seat 
in this hearing room, we have an overflow room with a live 
video feed. It is next door in the Hart Building, Room 216, if 
you are communicating with others who are waiting outside; 
Hart, Room 216.
    America has led the fight for human rights throughout the 
world. This Subcommittee has tried to play some part in that, 
holding the first congressional hearings on issues like rape as 
a weapon of war, and passing legislation like the Genocide 
Accountability Act.
    But we also have an obligation to look in the mirror, to 
look at our own human rights record. Today in the United 
States, more than 2.3 million people are imprisoned. This is, 
by far, the highest per capita rate of prisoners in the world. 
African Americans are incarcerated at nearly six times the rate 
of white Americans, Hispanics nearly twice as frequently. These 
numbers translate into human rights questions, challenges, and 
issues that we cannot ignore.
    I held a hearing on mental illness in U.S. prisons in 2009. 
I have authored the Fair Sentencing Act, which finally reduced 
dramatically the disparity between crack and powder cocaine, 
though I will tell you I believe it should be a strict one-to-
one ratio. We clearly have made improvements, but there is more 
to be done.
    We are here today to consider another critical issue: What 
do America's prisons say about our Nation and its values? What 
does the number of people we have in prison say? What does it 
say when we consider how we treat the people who are in prison? 
This is the first-ever congressional hearing on solitary 
confinement. The practice it is called many different things: 
supermax, segregation, isolation, among other names.
    At this point I am going to show a brief video clip, which 
is compelling.
    [Videotape played.]
    Chairman Durbin. Seventeen-year-old James Stewart was held 
in solitary confinement in an adult prison for two months. His 
sister Nicole Miera is here. She joins us. Nicole, thank you 
for sharing your brother's story.
    Unfortunately, Jimmy Stewart's story is all too common. 
Fifty percent of all prison suicides occur in solitary 
confinement. Jimmy was locked up in a cell like the one to my 
left. This was prepared as part of a trial. It is a replica of 
a solitary confinement cell, and it was sent to us to be here 
at the hearing. I stepped inside briefly before the hearing 
started, but there is no way that a brief visit there could 
give you any feeling for what it must be like to spend extended 
periods of time--hours, days, weeks, months, years--in that 
confined space for 23 hours a day.
    In 1995, a federal district court described similar cells 
at California's Pelican Bay State Prison as follows:
    ``The cells are windowless; the walls are white concrete. . 
. . The overall effect is one of stark sterility and 
unremitting monotony. Inmates can spend years without ever 
seeing any aspect of the outside world except for a small patch 
of sky. One inmate fairly described [it] as being `like a space 
capsule where one is shot into space and left in isolation.' ''
    Imagine, 23 hours a day in one of those cells, with little, 
if any, human contact.
    The United States holds far more prisoners in segregation 
or solitary confinement than any other democratic nation on 
Earth. The Bureau of Justice Statistics found that in 2005, 
U.S. prisons held 81,622 people in some type of restricted 
housing. In my home state of Illinois, 56 percent of the prison 
population has spent time in segregation.
    If I had one request to my colleagues on this Judiciary 
Committee, it is to visit a prison. Do it frequently. See what 
it is like. I have done it, most recently in Pekin at the 
federal facility. But I have been to Tamms, which is our 
maximum confinement facility in the State of Illinois. It is an 
eye opener to understand what it means when you start talking 
about the sentencing aspects of America's criminal justice 
system.
    We did not always use solitary confinement at such a high 
rate. But in the 1980s, things started changing. We began 
creating expensive supermax prisons designed to hold people in 
isolation on a massive scale. These supermaxes, just like the 
crack cocaine sentencing laws, were part of a tough-on-crime 
policy that many of us thought made sense at the time.
    But we now know that solitary confinement is not just used 
for the worst of the worst. Instead, we are seeing an alarming 
increase in isolation for those who do not really need to be 
there, and for many vulnerable groups like immigrants, 
children, LGBT inmates, supposedly there for their own 
protection.
    That is why I have advocated for a change in the Justice 
Department's new national prison rape standards, to help ensure 
that sexual assault victims are only placed in solitary when 
absolutely necessary. We have heard from Nicole Miera about the 
tragic consequences of locking up children in isolation. That 
is why the American Academy of Child and Adolescent Psychiatry 
has called for a ban on solitary confinement for all children 
under the age of 18. That ban might have saved your brother's 
life. In January, I visited an immigration detention center in 
deep southern Illinois and saw segregation units typical of 
those found at many county jails. I might remind you that 
people being held there are not there for criminal detention.
    Even for adults convicted of serious crimes, experts say 
far too many are in solitary confinement. Some are already 
seriously mentally ill before they are confined. They require 
extensive monitoring and treatment, the exact opposite of 
isolation. Others who may not have had any psychological 
problems before isolation can be driven into a psychosis or 
suicidal state. And there is also the more basic question of 
how prisons treat people in solitary. Their conditions of 
confinement, I think we all agree, need to meet basic standards 
of decency.
    As far back as 1890, the 19th century, the Supreme Court 
recognized the risks of solitary, describing the isolated 
inmates at one prison with the following words:
    ``A considerable number of the prisoners fell, after even a 
short confinement, into a semi-fatuous condition, from which it 
was next to impossible to arouse them, and others became 
violently insane; others still, committed suicide.'' That was 
written in 1890.
    And our colleague and former POW Senator John McCain of 
Arizona, who has lived through it, said, ``It's an awful thing, 
solitary. It crushes your spirit and weakens your resistance 
more effectively than any other form of mistreatment.''
    This is also a public safety issue. As the bipartisan 
Commission on Safety and Abuse in America's Prisons found, 
``Increasing the use of high-security segregation is 
counterproductive, often causing violence inside facilities and 
contributing to recidivism after release.'' We have a 
responsibility, I will acknowledge, to protect prison guards, 
men and women who put their lives on the line to protect all of 
us. We also must have a clear-eyed view of the impact of 
isolation on the vast majority of prisoners who will one day be 
released.
    Solitary confinement also is extremely costly. Tamms, which 
I mentioned earlier, in Illinois, our only supermax prison, has 
by far the highest per prisoner cost of any Illinois prison--
$61,522 a year this last Fiscal Year for supermax prisoners, 
compared to $22,000 for other prisoners.
    A number of states are starting to reassess solitary 
confinement. We will hear about some things today that are eye 
opening. These states have implemented reforms and reduced the 
use of solitary, lowering prison violence and recidivism rates, 
and saving millions of dollars.
    As a result of the work we have done preparing for this 
first-of-its-kind hearing, I am working on legislation to 
encourage reforms in the use of solitary confinement. We can no 
longer slam the cell door and turn our backs on the impact our 
policies have on those incarcerated and the safety of our 
nation.
    [The prepared statement of Senator Richard Durbin appears 
as a submission for the record].
    As I mentioned, Senator Graham is running a little late. At 
this point he would be--here he is. Just in time. Well, that 
was perfect. I will give you just a moment to gather--if you 
would like to make an opening statement, Senator Graham. I have 
just completed my own and you walked in. Do you want to do it 
now?
    Senator Graham. Very briefly.
    Chairman Durbin. Sure, please.

STATEMENT OF HON. LINDSEY GRAHAM, A U.S. SENATOR FROM THE STATE 
                       OF SOUTH CAROLINA

    Senator Graham. Mr. Chairman, I am sorry I am late. I have 
got to run to a hearing in the Armed Services Committee about 
an officer's nomination, but I just want to say, one, I look 
forward to hearing the testimony. Senator Durbin has been very 
outspoken and concerned about the way we run our prisons and 
how people are treated, and I think that is a compliment to 
him. And we will see where the information takes us, and I have 
tried to be balanced in my view toward detention. I think that, 
you know, the American values are on display when you have the 
power to confine someone. It says a lot about who we are as a 
nation. The individual conduct has to be balanced against who 
we want to be as a nation, and I understand the need to protect 
prisons from people who are acting out and doing things that 
are disruptive to the prison environment. At the same time, we 
want to make sure our detention policies live within the values 
of who we are, and that is, try to turn people around, not just 
protect them, keep them off the streets, but try to be 
constructive in changing people's behavior and lives.
    So thank you for the hearing.
    Chairman Durbin. Well, thank you, Senator Graham, and I 
want to say that Senator Graham and I agreed on the witness 
list. This is truly a bipartisan effort. And I hope more and 
more of that is evident here. We sure need it.
    I also want to note that we invited the Civil Rights 
Division of the Justice Department to participate, but they 
declined. We will be following up with them to make them aware 
of the results of today's hearing and ensure that they are 
enforcing the federal civil rights laws that protect prisoners 
held in our prisons across America.
    Now, our first witness is Charles Samuels, Director of the 
Federal Bureau of Prisons. Director Samuels will have five 
minutes for an opening statement, and his complete written 
statement will be included in the record. If you would please 
step forward, Director Samuels, it is the custom of the 
Committee to administer an oath. Please raise your right hand. 
Do you affirm the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Samuels. I do.
    Chairman Durbin. Let the record indicate that the witness 
answered in the affirmative.
    Director, we are going to give you five minutes for an 
opening statement, put your whole written statement in the 
record, and perhaps ask a few questions. So would you proceed?

 STATEMENT OF THE HONORABLE CHARLES E. SAMUELS, JR., DIRECTOR, 
           FEDERAL BUREAU OF PRISONS, WASHINGTON, DC.

    Mr. Samuels. Good morning, Chairman Durbin and Ranking 
Member Graham. I want to thank you for inviting me to testify 
today on the important issue of the role of segregated housing 
in corrections.
    Inmate safety and well-being is of the utmost importance to 
the Bureau, as is the safety of our staff and the community at 
large. As such, we do all that we can to ensure that we provide 
outstanding care, treatment, and programming to federal 
inmates, giving them the best opportunity for successful 
reentry to their communities. In order to provide these 
important services, it is critical that we run our institutions 
in a safe and orderly manner. Prisons must be secure, orderly, 
and safe in order for our staff to be able to supervise work, 
provide training, conduct classes, and run treatment sessions. 
When institutions are not safe, inmates have diminished access 
to programming opportunities. Further, unsafe institutions 
place staff and other inmates at risk and pose a danger to the 
community at large.
    The Bureau houses inmates in the least restrictive 
conditions necessary to ensure the safety and security of 
staff, inmates, and the public. The vast majority of our 
inmates are housed in general population units and are able to 
move freely about the compound during the day and evening. 
Inmates at our lower security levels, minimum and low, have 
greater freedom than those at the higher security institutions, 
medium and high.
    Inmates who are disruptive and aggressive toward others 
endanger the safety and security of our institutions. 
Accordingly, removing and segregating them from the general 
population allows us to continue to operate the institutions 
with open inmate movement.
    Fortunately, very few inmates require separation from the 
general population at any point in time. We only undertake 
these conditions of confinement when absolutely necessary. This 
allows us to maximize the use of staff time and space.
    As you know, the Bureau population continues to increase, 
and limited budgets have prevented us from increasing our 
capacity and our staffing to keep pace with this growth. We 
face dramatically increasing inmate-to-staff ratios and extreme 
levels of crowding, about 40 percent over capacity systemwide 
and 51 percent over capacity in our high-security institutions 
where our most violent offenders are housed.
    When inmates are placed in restricted housing, there are a 
variety of significant safeguards in place to ensure inmates' 
due process rights are protected. Additionally, inmates' mental 
health is always a factor in decisions regarding segregated 
housing. Bureau psychologists are integrally involved in the 
restricted housing placement process, and all staff who work in 
these units receive training and input from psychology services 
above and beyond our general staff training.
    Let me take a moment to address the concept of solitary 
confinement or isolation. All inmates in our restricted housing 
units have contact with staff, out-of-cell time for recreation, 
and an opportunity to program. Accordingly, we do not consider 
any inmates to be held in isolation, though we are aware that 
some might use this term to refer to all restricted housing 
placements regardless of the extent of contacts with other 
individuals.
    The Bureau primarily uses three types of restricted housing 
to maintain safety and security: Special Housing Units, Special 
Management Units, and the administrative maximum security 
institution, Florence, Colorado, the ADX. I have discussed the 
specifics of each of these units in detail in my written 
statement.
    With the exception of the ADX, which houses our most 
violent and dangerous offenders--for example, offenders who 
have murdered staff members or who have been involved in 
multiple inmate homicides--virtually all inmates within our 
restricted housing units are housed with other inmates, and all 
inmates within restricted housing have access to staff 
throughout the day. They are also provided time outside of 
their cells for indoor and outdoor recreation, almost always 
with other inmates, and they continue to have access to reentry 
programming.
    At the ADX, inmates are housed in single cells and have 
very limited contact with other inmates. However, they have 
individualized contact with staff throughout the day. Extensive 
safeguards are in place to ensure we continue to provide 
security and a high level of care for medical and mental help 
for all inmates regardless of where they are housed.
    Chairman Durbin, this concludes my formal statement. I 
appreciate you raising the important issue of segregated 
housing within prisons. The use of any form of restricted 
housing, however limited, remains a critical management tool 
that helps us maintain safety, security, and effective reentry 
programming for all federal inmates.
    Again, I thank you and Mr. Graham for your support for our 
agency. The mission of the Bureau of Prisons is challenging. By 
maintaining high levels of security and ensuring inmates are 
actively participating in evidence-based reentry programs, we 
serve and protect society.
    I would be pleased to answer any questions you or Mr. 
Graham may have.
    [The prepared statement of Mr. Samuels appears as a 
submission for the record.]
    Chairman Durbin. Director Samuels, thank you. I did not 
formally introduce you, but I want to thank you as Director of 
the Federal Bureau of Prisons since December 21, 2011, the 
eighth Director since the Bureau's establishment. You oversee 
all the Bureau of Prisons' institutions and facilities, and I 
thank you for being here.
    Because Senator Graham has a closed session of the Armed 
Services Committee and has to leave, I have asked him if he 
would be kind enough to open with questions before I ask any.
    Senator Graham. Well, thank you, Mr. Chairman.
    One of the roles that Congress provides in our democracy is 
oversight, and this is an issue that I am glad that we are 
talking about because I want people in your business to know 
that Congress cares. I want the communities of interest who 
follow humane treatment of detainees to know that we care. And 
I also want to let family members who may have a loved one in a 
prison that we are going to care about them, too.
    I know we have a special prison for very disruptive people, 
for people who have, as you indicated, a pattern of violence 
against guards or fellow inmates. That I understand. But in a 
normal prison population, what percentage of disruptive 
behavior that leads to segregation or solitary confinement, 
whatever term you want to use, is due to mental illness versus 
just people acting up?
    Mr. Samuels. In the Bureau, for our population, three 
percent of inmates suffer from a serious mental illness, so the 
majority of the inmates are not within that category. And I 
would also say that within our population 92 percent of the 
inmates are actively and freely moving about within the general 
population.
    Senator Graham. What is the longest someone can be confined 
in isolation?
    Mr. Samuels. It varies. We have individuals for different 
moments of time, which our overall goal and objective is always 
to minimize the length of time that the individual is actually 
placed in restricted housing.
    Senator Graham. Does it work as a deterrent to the 
population as a whole, the fact that you may be segregated? To 
the prison population as a whole, does this act as a deterrent 
to people acting up, the possibility of solitary confinement?
    Mr. Samuels. We believe with solitary confinement for the 
inmates who pose the most violence and disruption within the 
facility that we utilize it as a deterrent to correct the 
behavior.
    Senator Graham. Do you think it works as a deterrent?
    Mr. Samuels. Yes.
    Senator Graham. What makes you say that?
    Mr. Samuels. Within our assessment from what we have viewed 
with inmates who have been placed in restrictive housing, we 
have seen where the number of assaults throughout our system at 
various levels has improved. And when I say ``improved,'' I 
would say any assaults against other inmates as well as our 
staff. And we utilize this tool to ensure the safety and 
security of our facilities. And we always work with the inmates 
by using verbal communication and different forms of 
interaction to encourage inmates to be productive and not be 
engaged in violence and disorder within the facility because it 
makes it better for us to manage them as well as giving them an 
opportunity----
    Senator Graham. What kind of oversight do you have in terms 
of the decision to segregate a person, to put them in a 
solitary confinement environment? What kind of checks and 
balances do you have there to make sure it is just not because 
a particular guard does not like a particular prisoner and to 
make sure that there is sort of a due process way in and a due 
process way out?
    Mr. Samuels. All of the requirements for restrictive 
housing require due process, and I will start with our special 
housing unit process, which every facility within the Bureau, 
with the exception of our minimum security camps, has a special 
housing unit. If an inmate is charged for violating the rules 
and they are placed in segregation, they are given notice of 
the charges, and they have an opportunity to appeal the 
charges. And there is an investigative process that takes 
place, and if the inmate requires a staff representative and/or 
witnesses and any information that could be presented if they 
believe that it helps them explain their belief that they do 
not believe the charges are warranted, that process is in 
place.
    We also have procedures in place for the inmates to file an 
appeal, which they can do at the local level and with our 
regional offices all the way up to our headquarters in 
Washington, DC.
    Senator Graham. Do you have any information to share with 
the Committee about the mental health effects on solitary, 
segregated confinement?
    Mr. Samuels. I do not have any written study internal to 
the Bureau regarding the effects, but what I can tell you is 
that all of our staff who work in the mental health care field 
are trained, and they are given specialized training to deal 
with individuals who suffer from serious and/or mental health 
illnesses. And we go as far as to ensure that our staff 
throughout the agency also receive----
    Senator Graham. But there is no study or no academic 
guidance about how this technique affects people that you are 
aware of?
    Mr. Samuels. We have not conducted an internal study within 
the Bureau.
    Senator Graham. Is that something you think would be good 
to do?
    Mr. Samuels. We would welcome any research or literature 
regarding concerns relative to that area.
    Senator Graham. OK. And my last question would be: At the 
State level, how familiar are you with State procedures? And 
are you confident that they have similar checks and balances?
    Mr. Samuels. I would say in most of the correctional 
institutions throughout the country at the State level that 
many of the practices are somewhat similar.
    Senator Graham. Thank you, Mr. Chairman.
    Chairman Durbin. Thanks a lot, Senator Graham. I appreciate 
your coming.
    As most of you understand, we have competing hearings, 
overlapping hearings, and the fact that Senator Graham was here 
is appreciated very much. I am sure his staff will continue to 
follow this, and he will follow the testimony. And I thank 
Senator Franken for joining me here.
    Mr. Samuels, let me ask you a couple of questions. First, 
it is my understanding that those who are seriously mentally 
ill are not supposed to be assigned to supermax facilities like 
Florence, Colorado. Is that true?
    Mr. Samuels. You are correct. Our policy prohibits any 
inmate who suffers from a serious psychiatric illness to be 
placed in that confinement.
    Chairman Durbin. So obviously there must be an evaluation 
before someone is assigned to a supermax facility, and I would 
like to ask you what that evaluation consists of.
    Mr. Samuels. When individuals are being reviewed for 
placement at the ADX for that type of confinement, we have our 
psychology services staff, they conduct an evaluation, which is 
part of the referral process.
    Chairman Durbin. How long would that evaluation process 
last?
    Mr. Samuels. Initially, it is part of the process, but once 
they are actually placed in the facility, if we determine----
    Chairman Durbin. Before. I am talking about before they are 
referred to a supermax facility to determine whether or not 
they are suffering from a serious mental illness. How long 
would that evaluation last?
    Mr. Samuels. The in-person evaluation with our staff, that 
can take anywhere from a week to two weeks with an assessment 
of the individual.
    Chairman Durbin. How much time one-on-one between a 
psychologist and the inmate?
    Mr. Samuels. It varies.
    Chairman Durbin. Can you give me an idea? Is it a matter of 
minutes, hours?
    Mr. Samuels. I can give you later for the record, I mean, 
an average, but I would say--because this is being conducted, 
sir, throughout the country at various locations, and to give a 
specific amount of time----
    Chairman Durbin. OK, that is fair. But I would appreciate 
if you would get back to me.
    [The information appears as a submission for the record.]
    Chairman Durbin. So there is a population of about 450, 
roughly, at the supermax facility in Florence, Colorado. Is 
that correct?
    Mr. Samuels. About 490.
    Chairman Durbin. 490.
    Mr. Samuels. Yes.
    Chairman Durbin. And is there an ongoing evaluation of the 
mental health of the inmates at Florence?
    Mr. Samuels. Yes, sir.
    Chairman Durbin. And how many professionals are on staff at 
Florence to achieve that?
    Mr. Samuels. The staffing at the facility, we have a ratio 
which--outside of the medical and the psychology staff, the 
average is more or less around 20 staff there for that. But 
we----
    Chairman Durbin. Excuse me. Twenty for physical and mental 
health evaluation?
    Mr. Samuels. Yes, but--we have a psychiatrist who is on 
staff, and we also have 35 psychiatrists throughout the Bureau, 
and we use telepsychiatry.
    Chairman Durbin. I am going to zero right in to supermax 
here and ask you to separate those who would handle routine 
physical issues and those who are charged with dealing with the 
psychological, mental health of the prisoners, the 490. How 
many at Florence?
    Mr. Samuels. I will have to submit that for the record, 
sir.
    Chairman Durbin. I understand there are two. Do you know? 
That is OK. I am not going to put you on the spot. Do get 
back----
    Mr. Samuels. The numbers that you provided me are for the 
staff that are there, and what I wanted to articulate is that 
Bureau-wide we utilize the resources for the staff who are 
spread out, and that was one of the references I made with 
telepsychiatry. But the onsite staff would fall within the 
number that you referenced.
    Chairman Durbin. Two?
    Mr. Samuels. Yes, sir.
    Chairman Durbin. So we are dealing with a supermax 
facility, the highest incidence of segregation and isolation. 
We want to make certain--or at least our policy is that those 
with serious mental illness will not be sent there in the first 
place. And there are 490 persons there, and there are two 
onsite--I am going to use that until--we will have the record 
corrected if I am wrong--to evaluate these prisoners once 
there.
    Now, do you believe that isolation, 23-hour isolation, has 
a negative impact on the mental health of an individual?
    Mr. Samuels. I believe for those individuals who warrant 
placement in restrictive housing due to their behavior 
associated with mental health for the safety and security of 
the individual, the facility, and staff in general, there is a 
method and a process for ensuring that the inmate receives 
periodic evaluations and mental health treatment from our 
mental health providers to determine that we are monitoring 
these individuals in a manner that we can safely house them 
within those conditions.
    Chairman Durbin. I will concede the fact that there is a 
monitoring responsibility, and perhaps it is written into the 
guidelines for the Federal Bureau of Prisons. But I am asking 
you as a person who has been in corrections, do you believe you 
could live in a box like that 23 hours a day, a person who goes 
in normally, and it would not have any negative impact on you?
    Mr. Samuels. I would say that for individuals who are in 
that status, that for any inmate within the Bureau of Prisons, 
our objective is always to have the individual to frequently be 
in the general population. And we do everything that we can 
with our resources to ensure that we are working toward--
working to get the individual out into the general population.
    Chairman Durbin. I am trying to zero in on a specific 
question. Do you believe that confinement, solitary 
confinement, 23 hours a day, five hours a week in which you are 
allowed to leave that box or something that size, do you 
believe based on your life experience in this business that 
that is going to have a negative impact on an individual?
    Mr. Samuels. Sir, I would say I do not believe it is the 
preferred option and that there would be some concerns with 
prolonged confinement.
    Chairman Durbin. OK. I think that is fair.
    I went to Tamms, a state facility in Illinois, where we 
have isolation, and they took me into what was--almost an 
incredible experience. It was a class that was being taught to 
five men who were in 23-hour isolation, if you can imagine, and 
they were each confined to a plastic holding chamber, 
fiberglass holding chamber. Think in your mind of ``Silence of 
the Lambs'' for a moment here. And they were each in these 
isolated boxes, fiberglass boxes, and a teacher was standing in 
front of them. I have no idea what she was teaching. But they 
gave me an opportunity to walk up and speak to each one of 
them, look them in the eye and talk for just a few moments.
    I am not an expert. I am not a psychologist. I do not know. 
Some of them, I would ask them how long their sentence was and 
such, and two or three--two volunteered that they felt that 
this was the best thing for them, this isolation. They felt 
that, they expressed that.
    One man said to me that he had been sentenced to 25 years, 
but he received an additional sentence of 50 years since he had 
been in prison. And I said, ``What happened? '' He said, ``They 
took me out of isolation, put me in a cell with another person, 
and I told them if they did, I would kill him. And I did. I 
told them to leave me alone, I just want to be alone.'' He 
murdered another inmate and was sentenced to another 50 years.
    So what I am trying to say here is I do not want to just 
put you on the spot about whether that is the right thing to do 
or a good thing to do. I want to put it in the context of 
maintaining an institution and the order in the institution and 
the protection of innocent people who are part of that 
institution. Trying to strike some balance here. I would say 
that man who wants to be alone and isolated has proven that is 
the best place for him. All right? I cannot go any further in 
my evaluation.
    But the point I am trying to get to is this: I worry--I do 
not think he will ever come out of prison. I worry about those 
who end up in isolation for extended periods of time, who are 
subjected to mental stress that none of us can even imagine, 
and then ultimately go home out in the general population.
    Is it your feeling that once having gone through that 
experience it is more likely that a person will have problems 
when they finally emerge from the corrections system?
    Mr. Samuels. From my experience, I would say that we 
definitely want to ensure that any inmate within the Bureau at 
any time during their incarceration that we are doing 
everything that we can to improve their lives and that they are 
on a path for productive efforts toward reentry. And if an 
individual is placed in that status for restrictive housing--
and I know earlier a comment was made that many of these 
individuals, which, in fact, 95 percent of the inmates within 
the Bureau of Prisons will be released back to society at some 
point in time, that we are doing everything that we can to 
provide them the necessary training and skills. And so it is 
productive not only for the inmate but for the Bureau of 
Prisons to have these individuals working toward being removed 
from that status with the appropriate medical care and the 
psychological investment to ensure that we are proceeding in 
that manner.
    Chairman Durbin. So let me zero in here. I know that is 
your goal, and I am glad because that is the right goal. Is 
your goal served or is it a disservice to your goal the 
isolation experience that an inmate might go through?
    Mr. Samuels. For individuals who have worked their way into 
restrictive housing for the safety and the good order of the 
prison population, as I mentioned earlier, many of these 
individuals at the ADX are there for egregious acts, and when 
you look at the Bureau's population of 218,000, 490 is less 
than one-third of one percent for our entire population. So 
these individuals are the most disruptive and the most 
challenging within the Bureau of Prisons.
    However, having said that, we continue to do everything 
that we can to work toward getting them out of that status, and 
many of these individuals are there and they will continue to 
act out.
    Chairman Durbin. Senator Franken.
    Senator Franken. Thank you, Director Samuels. I understand 
everything you have been saying--I really do--in response to 
the Chairman's questions. I guess what he was driving at was--
well, let me ask you this first. What percentage of those who 
have been in solitary confinement end up being released 
ultimately? You said 95 percent of all federal prisoners end up 
being released. What percent of the people who have been in 
solitary confinement end up being released?
    Mr. Samuels. The percentage is going to vary because with 
solitary confinement, which we do view as temporary housing, 
that many of these individuals are going to be released and 
placed back in the general population, so I would not be able 
to give you a specific percentage for an overall term for 
inmates who have been placed in restrictive housing because it 
varies.
    Senator Franken. OK, because it seemed to me like the 
question that the Chairman was asking was does this--you know, 
what effect does this have on the mental health of people who 
are placed in solitary, and if they are released, do they 
present more of a danger to society for having been in 
solitary. But I do not think I will get a good--I mean, you 
know, a definitive answer to that.
    Mr. Samuels. If I may, I would respond that it was brought 
to my attention that the most recent and most rigorous study 
that has been done was completed by the Colorado Department of 
Corrections as recently as 2009, and in their study they 
identified that no negative effect on individuals in restricted 
housing has occurred.
    Senator Franken. No negative effect?
    Mr. Samuels. Yes.
    Senator Franken. OK. Mr. Nolan made some policy 
recommendations in his written testimony. I would like to hear 
your views on three of those.
    First, Mr. Nolan suggests that solitary confinement should 
be limited to cases of a clear danger of violence that cannot 
be controlled in other settings. That is first.
    Second--and I will repeat these if you want. Second, he 
says that each inmate should be screened for mental illnesses 
before being placed in solitary confinement and that they 
should be evaluated periodically by a psychiatrist who is 
independent from the corrections department.
    And, third, he says that inmates should have an opportunity 
to challenge decisions to send them into solitary confinement 
and that they should have a chance to notify their families 
that they are being placed in solitary confinement.
    Are these policies that the Bureau already has in place? 
And if not, would it consider implementing them?
    Mr. Samuels. I will start with the first comment as far as 
limiting the placement for individuals who pose a clear danger 
to the correctional environment, and I believe that is what we 
are doing. As I stated, if you look at our population of 
218,000 inmates, we have, you know, seven percent at any given 
time who are placed in restricted housing, and it is temporary 
in many cases.
    Senator Franken. What percent? I am sorry.
    Mr. Samuels. Seven percent, and that would be----
    Senator Franken. What was that very small percentage that 
you talked about just a few minutes ago where you said 435 or 
something?
    Mr. Samuels. That is at the ADX, which is our most 
restrictive housing for the Bureau of Prisons. We have less 
than one-third of one percent of individuals housed, so 490 
inmates throughout the country who have been placed in that 
status for an entire population out of 218,000.
    Senator Franken. But seven percent at any one time are in 
solitary.
    Mr. Samuels. It is seven percent at any given time 
throughout the Bureau of Prisons. We have individuals who could 
be placed in SHU, which is our special housing unit, and our 
special management unit.
    Senator Franken. Which is solitary confinement.
    Mr. Samuels. Yes.
    Senator Franken. OK. That is what I wanted to be clear. Is 
that limited to cases of clear danger of violence that cannot 
be controlled in other settings?
    Mr. Samuels. Yes.
    Senator Franken. Okay. So that is in place already?
    Mr. Samuels. Yes.
    Senator Franken. OK. Second, he says that each inmate 
should be screened for mental illnesses before being placed in 
solitary confinement, and they should be evaluated periodically 
by a psychiatrist who is independent from the corrections 
department. Is that in place?
    Mr. Samuels. Yes, within our system we have well over 1,300 
mental health staff that work for the Bureau of Prisons. And 
when inmates are placed in restricted conditions for 
confinement, an assessment is conducted by the staff in 
conjunction with the correctional services staff and other key 
departments within the Bureau of Prisons. And so there is an 
evaluation period to ensure that these inmates are being 
monitored carefully.
    If any inmate goes beyond a 30-day period, they are also 
provided an in-person assessment by a psychologist within the 
Bureau. At every facility within the Bureau of Prisons, we have 
a doctoral level chief psychologist who oversees these types of 
issues within the institution, because we believe that the 
mental health management and the well-being of these 
individuals should be something that is routine and ongoing.
    Senator Franken. OK. Maybe I did not say it clearly. He 
said ``should be evaluated periodically by a psychiatrist who 
is independent from the corrections department.'' It seems that 
what you are saying is--and I am sure that you are doing it as 
well as you can and for the reasons that you are doing it, but 
that is not the case right now. They are not evaluated by 
someone who is independent of the agency, right?
    Mr. Samuels. I would say that the majority of the inmates 
in restricted housing are not being evaluated by an external 
mental health professional. However, when needed, we utilize 
those resources to assist our staff.
    Senator Franken. OK. All I am saying is that his 
recommendation is that they be screened periodically by someone 
independent from corrections, so that is not in place.
    Third, he says that inmates should have the opportunity to 
challenge decisions that send them into solitary confinement 
and that they should have a chance to notify their families 
that they are being placed in solitary confinement. Is that the 
policy now?
    Mr. Samuels. Yes, when inmates are placed in restrictive 
confinement, they are given due process and an opportunity to 
challenge their placement in restrictive confinement, and that 
is in place.
    Senator Franken. And are they allowed to tell their 
families?
    Mr. Samuels. The individuals are given an opportunity to 
make a phone call to their family members, and they are also 
provided access to utilize mail as well as participate in 
visiting.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator.
    Some States are--we are going to hear from Commissioner 
Epps of Mississippi. Some States, like Mississippi, Ohio, and 
Maine, are undergoing significant reforms in their prison 
systems and reducing or eliminating the use of supermax 
facilities, segregated housing, and special housing units. 
Mississippi has been able to reduce its segregated population, 
and prison safety has improved. It has also reported a 
significant reduction in cost as a result.
    Are you familiar with these state initiatives? And what is 
the Federal Bureau of Prisons doing to either study or follow 
these models?
    Mr. Samuels. I am very familiar with the initiatives that 
you stated, and I would reiterate again within the Bureau of 
Prisons, I believe that with our classification system and how 
we review these inmates on an individual case for the behavior 
that has led them to be placed, that our numbers are relatively 
small because we are looking at a small number of inmates out 
of our entire population that are actually placed in 
restrictive housing, and it is for a temporary placement. And 
it is not something that we look at for long term.
    So we believe that with the numbers, if you look at the 
information that is at some point provided, you will see that 
our numbers are not very high when you compare us to a State 
system.
    Chairman Durbin. I do not want to draw the wrong conclusion 
from that, but I think your answer was the States can do what 
they wish, but our numbers are so small, we are not going to 
get into this business of reform.
    Mr. Samuels. No. What I am saying is that if you look at 
the before and after of their numbers and compare the 
classification tools that are used on the determination of 
whether or not an individual should be placed in restricted 
housing based on the safety, security, and order of the prison 
environment, if you have individuals who have the propensity to 
harm others, and in many cases who have killed other 
individuals, that these are individuals who have proven that 
they are going to require a restrictive form of confinement 
until it is proven otherwise with their behavior over a period 
of time that we are comfortable to ensure the safety of the 
facility putting them back in general population. So I am 
saying, sir, that the majority of the inmates that we have 
within these conditions of confinement, that through our review 
process and our monitoring of the status of these individuals, 
we believe that we are doing what we can and our best to 
maintain the safe order of the facility.
    Chairman Durbin. So let us look at the numbers. We asked 
the Bureau of Prisons how much time people spend in isolation. 
Here is what they said: The mean amount of time an inmate 
spends at supermax ADX facilities, 531 days in isolation, 
roughly a year and a half that we are talking about here. The 
mean amount of time in Special Management Units, which I assume 
would be in other prisons where people are put in segregation 
or isolation, 223 days, which would be over seven months, seven 
and a half months. The mean amount of time in Special Housing 
Units, 40 days.
    So has the Bureau of Prisons studied whether these time 
periods could be reduced? And do you think there is a 
possibility of reducing these time periods without compromising 
the safety of the institution?
    Mr. Samuels. I think the possibility of evaluating further 
what we can do to ensure that inmates are not staying any 
longer than necessary, which is something that we definitely as 
an agency will always strive to do because it is, again, not 
good for the individual to be in prolonged----
    Chairman Durbin. I am asking--let me be more specific. Is 
there a study underway--I mean, are people actually looking at 
this and thinking we may want to change policy? That is what I 
am driving at in terms of how many people are in segregation, 
isolation, and how long they stay. Are you studying this?
    Mr. Samuels. This is something that we are looking at 
internally within the Bureau regarding the timeframe of 
inmates' placement and what we can do internally with the 
resources we have to manage these types of inmates.
    Chairman Durbin. Since 2006, there have been 116 suicides 
in the Federal Bureau of Prisons; 53 of the 116 were in 
segregated housing, ADX, SMUs, and SHUs. That does not include 
attempted suicides. So do you consider this to be an indication 
that the stress level for an inmate is higher if they are put 
in segregation?
    Mr. Samuels. We would say that individuals placed in 
restricted housing--I would say the stress level is obviously 
higher, and as a result, we have done everything we can 
internally to increase our staffing and the resources that are 
required to manage that type of population. It is costly, and 
that is why I believe, and to your point, anything that we can 
do internally within the Bureau to ensure that we are not 
increasing costs and/or placing individuals unnecessarily, we 
want to do that because it is to the individual's benefit to be 
in general population as well as for our management abilities 
to effectively have, you know, control in an appropriate manner 
for the facility to have those individuals out freely moving 
about the general population as opposed to catering to----
    Chairman Durbin. Let me get down to some of the more 
graphic, and I will not go into detail here in the hearing, but 
it is there on the record. I have read stories about federal 
inmates and inmates at State facilities in isolation who have 
clearly reached a point where they are self-destructive. They 
are maiming themselves, mutilating themselves, doing horrible 
things to themselves. They are in an environment within that 
cell that is awful by any human standard.
    What happens next in the Federal Bureau of Prisons when 
someone has reached that extreme?
    Mr. Samuels. If an individual is exhibiting that type of 
behavior due to suffering from, you know, serious psychiatric 
illness, those individuals are not, within our policy, 
individuals that we would keep at the ADX or in restrictive 
housing. These individuals are referred to our psychiatric 
medical centers for care, and we believe that is important, and 
we would never under any situation believe that those 
individuals should be continued to be housed in that type of 
setting.
    Chairman Durbin. Well, because this is a matter of pending 
litigation, I am not going to go with any more specificity into 
it.
    I still go back to the possibility that of the 490 inmates, 
you have two professionals who are monitoring the psychological 
health of those inmates, and the impact of solitary or the 
impact of any prison policy on them. And it strikes me that it 
raises a serious question. How many people work at the ADX 
facility that might have prisoner contact?
    Mr. Samuels. We have on average anywhere from 360 staff for 
our staffing complement for the ADX, but back to the number of 
psychologists, at the site for ADX in total, we have nine 
psychologists that work at the complex.
    Chairman Durbin. Nine?
    Mr. Samuels. Nine.
    Chairman Durbin. OK. Is there a person who has the 
responsibility of hearing inmate complaints about treatment at 
the ADX facility?
    Mr. Samuels. Yes.
    Chairman Durbin. What is that title or designation?
    Mr. Samuels. If an individual is raising complaints against 
the facility, it is more of an internal review process where 
they can raise complaints to the correctional services 
supervisor, the associate warden or warden, and with our 
procedures it can go to the regional director for that region, 
and all the way to our headquarters in Washington.
    Chairman Durbin. Is that person designated a special 
investigative agent?
    Mr. Samuels. Yes, if there are allegations brought against 
staff or issues within the facilities, that would be the 
position.
    Chairman Durbin. Do you know who that person is at the ADX 
facility?
    Mr. Samuels. I know the position, not the individual.
    Chairman Durbin. Well, once again, this is a matter that 
has been raised as part of pending litigation. I will not get 
into it, but there have been questions raised as to the 
possible conflict of interest of this individual who is 
reported to be married to one of the corrections officers at 
the supermax facility and is supposedly the watchdog or 
whistleblower on behalf of prisoners who would protest 
treatment by the corrections officers. Do you think that on its 
face this is a conflict?
    Mr. Samuels. I would say due to the pending litigation and 
in the interest of the Bureau, I cannot respond to that 
question, sir.
    Chairman Durbin. Understood. Mr. Samuels, the Commissioner 
of the Maine Department of Corrections, Joseph Ponte, has 
implemented a number of reforms in his state by working side-
by-side with mental health workers, corrections officers, and 
advocacy groups. These reforms led to more than a 50-percent 
reduction of Maine's administrative segregation population. In 
written testimony for this hearing, Commissioner Ponte wrote 
that the first step in evaluating a corrections system is to be 
aware of what the current body of research tells us about 
changing prisoner behavior.
    Do you share the Commissioner's belief about the importance 
of understanding current research?
    Mr. Samuels. Yes.
    Chairman Durbin. I hope that that will lead to an honest 
evaluation of how we can continue to make for a safe prison 
system, one that is fair and humane, one that anticipates, as 
you said, that the vast majority of those inmates will one day 
be back on the street, and the condition that they will be in 
when they return to society.
    There will be written questions, I think, along the way 
here, but I appreciate your testimony today. Thank you very 
much for joining us.
    Mr. Samuels. Thank you.
    Chairman Durbin. I would like to call the second panel. I 
want to ask consent that Senator Leahy's statement be placed in 
the record, and since there is no one else here at the moment, 
that consent is given unanimously.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Durbin. Before you all get comfortable, I will ask 
you to please stand and raise your right hand. Do you solemnly 
swear the testimony you give will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Epps. I do.
    Mr. Andrews. I do.
    Mr. Graves. I do.
    Mr. Haney. I do.
    Chairman Durbin. Thank you. Let the record reflect that all 
four witnesses answered in the affirmative.
    One of the witnesses who had planned on being on this 
panel, Pat Nolan, President of the Justice Fellowship, could 
not attend due to illness. He was very upset that he could not 
because he wanted to be here. We wish him a speedy recovery.
    Christopher Epps was first appointed Commissioner of the 
Mississippi Department of Corrections in 2002 by then-Governor 
Ronnie Musgrove, who was a Democrat. Since then he has been 
reappointed by two different Republican Governors--former 
Governor Haley Barbour and current Governor Phil Bryant. 
Commissioner Epps is the longest-serving Commissioner in the 
history of the agency. As the President-Elect of the American 
Correctional Association, Commissioner Epps will begin serving 
that term in 2013. He has also previously served as the 
President of the Southern States Correctional Association, sits 
on a number of boards and committees, and received a long list 
of awards and honors. He received his master's degree in 
guidance and counseling from Liberty University in Lynchburg, 
Virginia; his bachelor of science in elementary education from 
Mississippi Valley State University.
    Commissioner Epps, thank you for joining us today, and 
please proceed with your testimony.

   STATEMENT OF CHRISTOPHER EPPS, COMMISSIONER, MISSISSIPPI 
        DEPARTMENT OF CORRECTIONS, JACKSON, MISSISSIPPI

    Mr. Epps. Thank you, Mr. Chairman. I appreciate the invite. 
Let me just say good morning to everyone.
    I began my career as a corrections officer--and I have held 
10 positions up to commissioner--back in 1982 when I started. 
And back then, solitary confinement was sparingly utilized for 
the most incorrigible and dangerous offenders. There was very 
limited space. We only have 56 cells at a place called 
Mississippi State Penitentiary known as Parchman.
    A tragic murder of a corrections officer occurred in 1989, 
and that prompted construction of a unit called Unit 32 at the 
Mississippi State Penitentiary at Parchman. Unit 32 was a 
1,000-bed maximum security unit where all the inmates were in 
lockdown in single-cell housing for 23 or 24 hours a day, seven 
days a week. The unit was opened in 1990, and it was all 
single-cell.
    Mr. Chairman, for this hearing, I would like to use the 
American Correctional Association term for administrative 
segregation, solitary confinement, and that is a formal 
separation from general population administered by a 
classification committee or other authorized group when the 
continued presence of the inmate in general population would 
pose a threat, a serious threat, to life, property, self, 
staff, or other inmates, or to the secure, orderly running of 
the institution.
    I was convinced, after operating Unit 32 back at Parchman, 
that an inmate should remain in administrative segregation 
until he demonstrated over a period of time that his behavior 
had changed and he was no longer a threat to staff, other 
offenders, and public safety. And in this case, it could be for 
many years, and for some it was not until they were released 
from prison or they died in Unit 32. The prison was easy to 
enter, but it was almost impossible to be released without 
exemplary behavior.
    Along came ``Truth in Sentencing'' in 1995 where inmates 
had to do 85 percent of their sentence regardless of their 
behavior, and increased incarceration of mentally ill 
individuals compounded the situation of hopelessness at the 
prison. Young offenders with long sentences and involved in 
gangs became a large percentage of the population. Again, Unit 
32 was not air conditioned, 1,000 beds, single cell. One inmate 
told me, as I was touring the facility one day, he said, 
``Commissioner, you have taken all hope. We have nothing to 
lose.''
    Unit 32 conditions of confinement was increasingly 
litigated with a 2003 consent decree regarding death row 
offenders in Russell v. Mississippi Department of Corrections, 
and a second consent in 2007 for administrative segregation 
offenders in Presley v. MDOC. In May 2007, violence began to 
erupt at Unit 32 and continued throughout the summer. We had 
three homicides and many serious disruptive incidents, and we 
had a suicide. I finally realized that it was time for a 
change.
    So we began to reform Unit 32 by thinking outside the box, 
and we got together with the National Institute of Corrections 
as well as the ACLU, and we collaborated with Dr. James Austin, 
and we came up with a valuable classification system. And what 
came out of that was we had many inmates that were 
overclassified.
    In addition to that, we hand-picked staff, and we gave 
staff a 20-percent increase in pay for working in the max unit. 
We also implemented multidisciplinary teams to make decisions 
regarding the mentally ill. We were also able to develop a 
program for those who were in the administrative segregation 
programs such as group counseling, alcohol and drugs, life 
skills, and anger management. They were all started for 
offenders.
    We were able to use all of these tools and put them in our 
tool bag, and the Mississippi Department of Corrections 
administrative segregation reforms resulted in a 75.6 percent 
reduction in the administrative segregation population from 
over 1,300 in 2007 to 316 by June 2012. Because Mississippi's 
total adult inmate population is 21,982 right now, that means 
that 1.4 percent are currently in administrative segregation. 
And out of that number, 188 are participating in the program.
    To me, it is real simple as it relates to administrative 
segregation. One, you have to have in place a genuine 
documented classification system; two, you have to have 
programs in place; three, you have to have provisions in place 
to make sure that only the right people can go to 
administrative segregation. It has to be myself, my Deputy 
Commissioner of Institutions, or the Director of Classification 
to put you in there, to approve. And in addition to that, over 
time we were able to save $5.6 million by all this 
reclassification.
    Corrections is no different than anything else in our 
nation. These cells have to be used as high-cost real estate. 
In Mississippi, to house an inmate on administration 
segregation costs $102.27 a day, whereas, a medium security 
inmate, it costs $43.72 a day.
    I think we, as corrections leaders, must realize that to be 
successful, we have to always be willing to change and listen 
to all the stakeholders involved in the criminal justice 
system. We cannot take a one-sided approach. And I have been 
most successful when I made decisions that were in the best 
interest of all.
    Corrections is like climbing a mountain. We never get to 
the top. We have to continue to climb and do the very best we 
can.
    Mr. Chairman, I thank you for the opportunity to appear 
before you today, sir.
    [The prepared statement of Mr. Epps appears as a submission 
for the record.]
    Chairman Durbin. Thanks for that testimony. I will have a 
few questions for you.
    Craig Haney is a professor of psychology at the University 
of California, Santa Cruz, and he is director of their legal 
studies program. Since the late 1970s, Professor Haney has been 
one of the leading experts on the psychological effects of 
prison isolation and solitary confinement. He has conducted 
systematic, in-depth assessments of hundreds of solitary or 
supermax prisoners in different states. He has also testified 
as an expert witness about the psychological impact of solitary 
confinement in several landmark federal cases. He was recently 
appointed to the National Academy of Science's committee 
studying prison conditions and prison policy. He has served as 
a consultant to the U.S. Department of Justice, the California 
State Legislature, and many others. He received his Ph.D. in 
psychology and a J.D. from Stanford University.
    Professor Haney, the floor is yours.

   STATEMENT OF CRAIG HANEY, PH.D., PROFESSOR OF PSYCHOLOGY, 
        UNIVERSITY OF CALIFORNIA, SANTA CRUZ, CALIFORNIA

    Mr. Haney. Senator Durbin, thank you for the opportunity to 
participate in this historic hearing.
    I am someone who has probably spent almost as much time 
inside our nation's prisons and jails over the last 30 years as 
I have inside the classroom at my beautiful home university. 
This has included inspecting dozens of solitary confinement 
units across the country and interviewing, as you said, many 
hundreds of men and women who are confined in their cells on 
average 23 hours a day, many for years, even decades.
    I brought some photographs to illustrate what solitary 
confinement looks like and how it is practiced now in the 
United States that your staff has kindly agreed to show.
    Many isolation prisons are stark and foreboding structures. 
The cell blocks are typically small and are sometimes overseen 
by armed correctional officers. The cells themselves are often 
scarcely larger than the size of a king-size bed. Prisoners 
thus eat, sleep, and defecate each day in areas just a few feet 
apart from one another.
    It is hard to describe in words what such a small space 
begins to look like, feel like, and smell like when someone is 
required to live virtually their entire life in it.
    Because contact visiting is prohibited in solitary 
confinement, prisoners never touch another human being with 
affection. Their only regular so-called interactions occur when 
corrections officers place food trays on the slots of their 
doors, the same slots where prisoners are first handcuffed 
anytime their cell doors are opened. Indeed, the only time they 
are physically touched is when being placed in mechanical 
restraints--leg irons, belly chains, and the like. They are 
escorted by no fewer than two and sometimes as many as five 
correctional officers any time they are taken out of their 
unit.
    Their one hour a day outside of their cells is termed 
``yard time,'' but it occurs in a place that barely resembles a 
yard. It consists, instead, of an exercise pen or cage or a 
concrete enclosed area that prevents any view of the outside 
world.
    There is a disturbingly high concentration of mentally ill 
prisoners in solitary confinement, as you have heard. If they 
are fortunate enough to be in a unit that provides them with 
treatment, they are usually unfortunate enough to receive it in 
a treatment cage, or in several of them, in a unique form of 
group therapy.
    As you mentioned earlier, Senator, your colleague Senator 
McCain has characterized solitary confinement as an awful 
thing, correctly noting that ``it crushes your spirit and 
weakens your resistance more effectively than any other form of 
mistreatment.''
    I agree, and know that for some prisoners less resilient 
than he, solitary confinement precipitates a descent into 
madness. Some isolated prisoners smear themselves with feces, 
sit catatonic in puddles of their own urine, or shriek wildly 
and bang their fists or heads against the walls that contain 
them.
    In some cases, the reactions are even more tragic and 
bizarre, including grotesque forms of self-harm and mutilation. 
Prisoners have amputated parts of their own bodies or inserted 
tubes and other objects into their penises in acts that 
unfortunately can be met with an institutional matter-of-
factness that is equally disturbing.
    Less extreme and much more common reactions include panic 
attacks, hypervigilance, and paranoia; cognitive dysfunction, 
hopelessness, and depression; and anger and rage.
    Although solitary confinement certainly does not drive 
everyone who experiences it crazy, we do know that time spent 
in these places is often more than merely painful, moving 
beyond suffering to placing prisoners at grave risk of 
psychological harm.
    In addition, isolated prisoners frequently develop forms of 
social pathology, ways of being that are functional to 
surviving the asocial world of solitary confinement, but 
profoundly dysfunctional when these prisoners are returned to a 
mainline prison or released, as most of them are, into the free 
world where they now must interact effectively with others or 
risk permanent marginalization. Indeed, this enforced 
asociality and the virtually total lack of training or 
meaningful programming that isolated prisoners typically 
receive can significantly impede their post-prison adjustment, 
raising important concerns about the effect of solitary 
confinement on recidivism and public safety.
    As prison populations continue to gradually decline in the 
United States and the Nation's correctional system rededicates 
itself to program-oriented approaches designed to produce 
positive prisoner change, our use of solitary confinement 
should be radically rethought and restricted, and the resources 
now expended on it redirected to more humane, cost-effective, 
and productive strategies of prison management.
    It is my sincere hope that this Committee will help lead 
the way.
    [The prepared statement of Mr. Haney appears as a 
submission for the record.]
    Chairman Durbin. Professor Haney, thank you. I read your 
testimony carefully, and I know that you have spent a lifetime 
focusing on this, and I thank you for coming here today.
    Stuart Andrews is a partner at the law firm of Nelson 
Mullins Riley & Scarborough in Columbia, South Carolina. He is 
the head of his firm's South Carolina health care group and 
former chairperson of the firm's pro bono program. He serves on 
a number of statewide task forces on health care policy in 
South Carolina, and among his previous posts, he was Executive 
Director of the South Carolina Legal Services Association, 
Chairman of the South Carolina Legal Services, and Chairman of 
the South Carolina State Board of Education. He received his 
bachelor's degree from Erskine College, and his J.D. from the 
University of South Carolina School of Law.
    Senator Graham asked that he be part of this panel, and I 
am more than happy that you have joined us today. Mr. Andrews, 
please proceed.

 STATEMENT OF STUART M. ANDREWS, JR., PARTNER, NELSON MULLINS 
       RILEY & SCARBOROUGH LLP, COLUMBIA, SOUTH CAROLINA

    Mr. Andrews. Thank you, Mr. Chairman. Thank you 
particularly for your interest in this subject of enormous 
significance to men and women incarcerated in our prisons and 
jails throughout our Nation.
    I am grateful for the opportunity to provide the Committee 
with information concerning the use of solitary confinement in 
South Carolina prisons, particularly the use to which inmates 
diagnosed with mental illness have been subjected.
    The Nelson Mullins law firm represents a class of inmates 
with serious mental illness in South Carolina prisons, many of 
whom have spent significant time in solitary confinement. I am 
appearing today on behalf of that class and its guardian ad 
litem, Joy C. Jay, as well as on behalf of Protection and 
Advocacy for People with Disabilities, a South Carolina 
nonprofit organization charged by federal and state law to 
protect and advocate for the rights of people with 
disabilities.
    After years of investigations, reports, and negotiations, 
the inmate class and P&A filed suit in South Carolina state 
court in June 2005 against the South Carolina Department of 
Corrections, alleging violations of the South Carolina 
Constitution's prohibition against cruel and unusual punishment 
and seeking injunctive relief to require the provision of 
adequate mental health services to our class. After more than 
six years of litigation, a bench trial was held in February and 
March of this past year, although no ruling has been entered to 
date.
    A major issue in the trial was the extensive reliance by 
the Department of Corrections on solitary confinement as a 
means of managing inmate conduct, particularly inmates with 
mental illness. During their imprisonment, nearly half of the 
nearly 3,000 men and women with mental illnesses on the 
department's caseload have been held in solitary confinement 
for periods cumulatively averaging almost two years.
    The effects of the conditions in solitary confinement can 
be harmful for anyone, but they particularly expose individuals 
with mental illness to substantial risks of future serious 
harm--the applicable Eighth Amendment standard applied in 
systemic conditions cases like ours. To illustrate some of what 
we have learned about the operation of solitary confinement in 
our State's prisons, I would like to call to your attention to 
two individuals who have been members of our class.
    The first is Theodore Robinson, who is a 50-year-old man 
with paranoid schizophrenia serving a life sentence. Mr. 
Robinson's speech is highly disorganized, and he has a history 
of bizarre behavior, such as drinking his own urine. Like many 
people with schizophrenia, he suffers hallucinations and 
delusions. For example, he believes that at night while he 
sleeps doctors secretly enter his cell and perform surgery on 
him.
    From 1993 through 2005, a period of 12 consecutive years, 
Mr. Robinson was kept in solitary confinement. Fifteen days 
after our lawsuit was filed, however, the department removed 
Mr. Robinson from solitary and placed him in its psychiatric 
residential program.
    Other inmates with serious mental illness have not been so 
lucky. In South Carolina, mentally ill inmates are twice as 
likely as other inmates it to be in solitary confinement; two 
and a half times as likely to receive a sentence in solitary 
that exceeds their projected release date from prison; and over 
three times as likely to be assigned to an indefinite period of 
time in solitary.
    Mentally ill inmates placed in solitary are not limited to 
those with mild mental disorders. Like Theodore Robinson, many 
are diagnosed with schizophrenia or other serious mental 
illnesses, such as bipolar disorder, schizoaffective disorder, 
or major depression. A Department of Corrections psychiatrist 
at Lee Correctional Institution, for example, estimated that 40 
to 50 percent of her caseload who were in solitary confinement 
were ``actively psychotic.''
    Perhaps the single most deplorable solitary confinement 
unit in the South Carolina prison system is the cell block at 
Lee Correctional Institution known as Lee Supermax. On February 
18, 2008, an inmate named Jerome Laudman was found in a Lee 
Supermax cell, lying naked without a blanket or mattress, face 
down on a concrete floor in his own vomit and feces. He died 
later that day in a nearby hospital. The cause of death was 
reported as a heart attack, but hospital records noted 
hypothermia, with a body temperature upon arrival at the 
hospital of only 80.6 degrees.
    Mr. Laudman suffered from schizophrenia, mental 
retardation, and a speech impediment. According to his mental 
health counselor, he had never acted in an aggressive or 
threatening manner.
    On February 7, 2008, 11 days before his death, Laudman was 
moved to Lee Supermax, purportedly for hygiene reasons because 
he refused to take a shower, although no one later admitted to 
ordering the move.
    On February 11th, one week before Mr. Laudman's death, a 
correctional officer saw him stooped over like he was sick or 
weak. The officer noticed styrofoam trays piled up inside his 
door that had not been collected. He considered notifying a 
unit captain or administrator, but was discouraged by his 
supervisor. On the afternoon of Mr. Laudman's death, two nurses 
were called to Mr. Laudman's cell. They observed him lying face 
down in his own waste and vomit, but still alive. The styrofoam 
trays were still there, with rotted food. The conditions were 
so foul that the nurses and the correctional officers whom they 
summoned refused to enter the cell to remove Mr. Laudman, who 
was still alive at that point. So instead they called two 
inmate hospice workers, who took 30 minutes to get there, at 
which point they removed the body. Later that day in a 
hospital, Mr. Laudman died.
    In South Carolina, a disproportionate number of mentally 
ill inmates are placed in solitary confinement. Many are 
actively psychotic. Conditions are atrocious, mental health 
services inadequate, and stays are inhumanely long. Theodore 
Robinson was fortunate. After 12 consecutive years in solitary, 
he was transferred to a psychiatric residential program, but 
coincidentally, two weeks after he filed a lawsuit against the 
department.
    Jerome Laudman was not so fortunate. After 11 days in Lee 
Supermax, he died of neglect in a cold, filthy cell.
    For other inmates with mental illness in solitary 
confinement in South Carolina, the story is ongoing. Will they 
receive adequate mental health treatment to stabilize their 
mental illness? How well will the solitary prepare them to 
handle the transition back into the community? These questions, 
and their implications for the constitutional rights of all 
mentally ill inmates in South Carolina, remain unanswered 
today, and we thank you and this Committee for undertaking them 
to try to improve and correct the conditions to which inmates 
in solitary are subjected.
    Thank you.
    [The prepared statement of Mr. Andrews appears as a 
submission for the record.]
    Chairman Durbin. Thank you for your testimony. I think your 
dedication as an attorney in private practice really is an 
indication of why they call it a profession and not just a job.
    Mr. Andrews. Thank you, sir.
    Chairman Durbin. Thank you.
    Anthony Graves is the next witness. He served 18 years 
incarcerated and on death row in Texas. A federal appeals court 
overturned his conviction in 2006. He was completely exonerated 
in 2010. The Burleson County District Attorney deemed Mr. 
Graves ``an innocent man.'' Texas Governor Rick Perry described 
Mr. Graves' case as ``a great miscarriage of justice.''
    Since his release, Mr. Graves has had the courage to speak 
out about our criminal justice system. He founded 
AnthonyBelieves.com, which is dedicated to criminal justice 
reform.
    It took courage for you to come here today, and we 
appreciate your testimony. The floor is yours.

  STATEMENT OF ANTHONY C. GRAVES, FOUNDER, ANTHONY BELIEVES, 
                         HOUSTON, TEXAS

    Mr. Graves. Thank you, Mr. Chairman. My name is Anthony 
Graves, and I am death row exonoree number 138. I was 
wrongfully convicted and sentenced to death in Texas back in 
1992. Like all death row inmates, I was kept in solitary 
confinement under some of the worst conditions imaginable, with 
the filth, the food, the total disrespect of human dignity. I 
lived under the rules of a system that is literally driving men 
out of their minds. I survived the torture, but those 18 years 
were no way to live.
    I lived in a small 8-by-12-foot cage. I had a steel bunk 
bed with a very thin plastic mattress and pillow that you could 
only trade out once a year. I have back problems as a result. I 
had a steel toilet and sink that were connected together, and 
it was positioned in the sight of male and female officers. 
Degrading.
    I had a small shelf that I was able to use as a desk to 
write on and eat on. There was a very small window up at the 
top of the back wall. In order to see the sky, you would have 
to roll your plastic mattress up to stand on. I had concrete 
walls that were always peeling with old paint.
    I lived behind a steel door that had two small slits in it, 
the space replaced with iron mesh wire, which was dirty and 
filthy. Those slits were cut out to communicate with the 
officers that were right outside your door. There was a slot 
that is called a pan hole, and that is how you would receive 
your food. I had to sit on my steel bunk like a trained dog 
while the officers would place the trays in my slot. This is no 
different from the way we train our pets.
    The food lacks the proper nutrition because it is either 
dehydrated when served to you or perhaps you will find things 
like rat feces or a small piece of broken glass. When I was 
escorted to the infirmary one day, I was walking past where 
they fixed the food, and I watched a guy fix this food, and he 
was sweating in it. That was the food they were going to bring 
me.
    There is no real medical care. I had no television, no 
telephone, and, most importantly, I had no physical contact 
with another human being for 10 of the 18 years I was 
incarcerated. Today I have a hard time being around a group of 
people for long periods of time without feeling too crowded. No 
one can begin to imagine the psychological effects isolation 
has on another human being.
    I was subjected to sleep deprivation. I would hear the 
clanging of metal doors throughout the night or an inmate 
kicking and screaming because he has lost his mind. Guys become 
paranoid, schizophrenic, and cannot sleep because they are 
hearing voices. I was there when guys would attempt suicide by 
cutting themselves, trying to tie a sheet around their neck or 
overdosing on their medication. Then there were the guys that 
actually committed suicide.
    I will have to live with these vivid memories for the rest 
of my life. I would watch guys come to prison totally sane, and 
in three years they do not live in the real world anymore. I 
know a guy who would sit in the middle of the floor, rip his 
sheet up, wrap it around himself, and light it on fire. Another 
guy would go out in the recreation yard, get naked, lie down 
and urinate all over himself. He would take his feces and smear 
it on himself as though he was in combat. They ruled he was 
competent to be executed.
    I knew guys who dropped their appeals, not because they 
gave up hope on their legal claims but because the conditions 
were just intolerable. They would rather die than continue to 
exist under such inhumane conditions.
    Solitary confinement breaks a man's will to live and he 
deteriorates right in front of your eyes. He is never the same 
person again. Then his mother comes to see him. She cannot 
touch him. She has not touched him in years. She watches as her 
son sits right there and deteriorates in front of her eyes. 
This thing has a ripple effect. It does not just affect the 
inmate; it affects his family, his siblings, his children, and, 
most importantly, it affects his mother.
    I have been free for almost two years, and I still cry at 
night because no one out here can relate to what I have gone 
through. I battle with these feelings of loneliness. I have 
tried therapy but it did not work. The therapist was crying 
more than me. She could not imagine how inhumanely our system 
was treating people.
    I have not had a good night's sleep since I have been out. 
I only sleep about two and a half to three hours a night, and 
then I am up. My body has not made the adjustment. I have mood 
swings that just cause emotional breakdowns. I do not know 
where they come from. They just come out of nowhere. Solitary 
confinement makes our criminal justice system criminal.
    It is inhumane, and by its design it is driving men insane. 
I am living amongst millions of people out here, but I still 
feel alone. And I cry at night because of these feelings. I 
want them to stop, but they will not.
    I watched men literally self-mutilate themselves. They had 
to be put on razor restrictions because if they are given a 
razor, they would cut their own throat, their own neck, 
whatever they could cut on their bodies. They would just stand 
there in front of you and cut themselves.
    This one man in particular that I watched do this, they 
took him over to what they called the psychiatric ward. A few 
days later, he hung himself--all because of the conditions.
    There is a man sitting on Texas death row right now who was 
housed in solitary confinement who pulled his eye out and 
swallowed it--all because of the conditions. Solitary 
confinement dehumanizes us all.
    Thank you, Chairman.
    [The prepared statement of Mr. Graves appears as a 
submission for the record.]
    Chairman Durbin. No. Thank you.
    A few years ago, there was a man sitting in that chair who 
told the story of his sister who was sentenced to nearly 22 
years in prison for a case of crack cocaine. He was from Alton, 
Illinois. He was raising his sister's kids. And a few of us 
sitting here listening to his story said, ``We have got to do 
something about this,'' and we did. Not as much as we should 
have, but we did. He did not know when he made his trip out 
here and sat at that table that talking into that microphone 
would change anything. But it did.
    And you have got to feel the same way. There is real value 
in your life and that you are here today telling this story on 
behalf of a lot of people who cannot speak for themselves. If 
you were not here, if your voice was not heard, they would have 
no one. So your courage in telling this story, as tough as it 
must have been, ought to tell you about the value you have 
still in life and what you can still bring, so thank you. Thank 
you for that.
    Mr. Graves. Thank you, sir.
    Chairman Durbin. I am going to ask a few questions now of 
the panel.
    First, Professor Haney, you heard the testimony from the 
Bureau of Prisons about its supermax, with 490 inmates. I tried 
to get on the record--and in fairness to the Bureau, I want 
them to give me the best information they can about screening 
before someone goes to the supermax, and once in the supermax, 
how prisoners are monitored, how many professionals are there 
to do the job, and once someone is in that isolated 
circumstance, if they start exhibiting things that should be 
carefully monitored, who would do it.
    You have been through this. You have been through federal 
prisons, state prisons, and others. What can you tell us about 
the conditions at our federal supermax prison and how the issue 
of mental illness is handled there?
    Mr. Haney. Well, Senator, I have been through the ADX 
facility many times. I have toured and inspected it on five or 
six different occasions, and I am familiar with many of the 
prisoners who are there. And my understanding and analysis of 
that facility bears almost no relationship to what you heard.
    Unfortunately, the Federal Bureau of Prisons, in my 
opinion, does the same inadequate job as the state systems that 
we have been talking about do. Those inadequacies extend to the 
evaluations of the people who go into the system in the first 
place. We put far too many people inside solitary confinement, 
people who should be categorically excluded. Juveniles and the 
mentally ill, for example, still show up inside these systems 
of isolation, and should not. And in the federal system, there 
are mentally ill prisoners, in my opinion, who are in ADX, 
people with long mental health histories documented by the 
Bureau of Prisons itself.
    We keep them in far too long. There are prisoners who are 
in solitary confinement for decades in this country. In the 
system that I know best, California, in the notorious Pelican 
Bay Security Housing Unit, there are about 500 men who have 
been in solitary confinement for 10 years or longer, nearly 100 
who have been in solitary confinement for 20 years, essentially 
since the facility opened in 1989.
    There are prisoners at the ADX who have been in solitary 
confinement, not only at ADX but including their time 
elsewhere, for decades. We keep them far too long, and the 
Bureau of Prisons keeps them far too long as well.
    We fail in terms of the kinds of programs that we provide 
for people while they are there. What are the conditions of 
confinement? They are far too severe to serve any rational 
penological purpose. And then we do precious little in terms of 
providing transitional services for them when they are 
released. There are state systems around the country that have 
literally no transitional services, so they currently release 
people directly out of solitary confinement. Sometimes 
prisoners who have been there for many years, even decades, 
come directly out of that environment onto the streets of free 
society.
    Chairman Durbin. It is a mistake, I know, but I am going to 
do it anyway, to take anecdotal evidence and try to turn it 
into some profound revelation. But my trip to Tamms, my brief 
encounter with people facing this, and two very violent 
criminals who said they felt better now in this circumstance 
than they had ever felt in their lives. So have you run into 
that phenomenon?
    Mr. Haney. Yes, and I think, first of all, I want to 
commend you for being one of the few Senators who knows 
directly about which we speak, because you visit these places, 
and I think it is hard to understand and grasp the reality of 
these institutions unless you go there. And so I would endorse 
your earlier recommendation to your fellow Senators to visit 
these institutions and talk to the people who are there. But 
let me say a couple things about the anecdote that you shared.
    One is that it is, I think, important to separate solitary 
confinement from being single-celled or single-housed. There 
are many prisoners who prefer to be alone in their cells, but 
not alone in their cells under solitary confinement-type 
conditions. So many people who say they would prefer being in 
isolation are talking about isolation versus being double-
celled or more, or worse, in very crowded prison conditions, 
which some people simply cannot psychologically tolerate.
    In the old days, before prison overcrowding became the norm 
in the United States, most prisoners were single-celled. Now, 
as I am sure you know, most prisoners are double-celled or 
housed in crowded dormitories. There are some prisoners who 
simply cannot handle confinement in a cell not much bigger than 
the one that you have constructed in the courtroom that they 
have to share with another person. They simply cannot manage 
that psychologically. And nowadays, unfortunately, they are 
given the Hobson's choice of either trying to tolerate that 
kind of enforced confinement with another person or committing 
a disciplinary infraction because that is the only way that 
they can attain single-cell housing--by being placed in 
solitary confinement. So that is one issue.
    The other issue is that one of the very serious 
psychological consequences of placing people in solitary 
confinement for long periods of time is that it renders many 
people incapable of living anywhere else. In other words, they 
have to transform themselves, their habits of being, their ways 
of acting and thinking and relating to themselves as well as 
the world, premised on the assumption that they will not be 
around other human beings. And they actually get to the point 
where they find that it is frightening to be around other 
people. Many of the people who I work with who come out of 
solitary confinement and go either into mainline prisons or 
come out into free society talk about being anxious, overcome, 
overwhelmed with anxiety when they are around other human 
beings because they become accustomed to being isolated or 
being alone.
    Chairman Durbin. Let me ask you about the double-celling, 
because that is what I found in Pekin--Pekin, Illinois, Federal 
correctional facility. And I asked them to take me to the 
segregated unit, and they did, and we walked through it briefly 
and looked at the exercise area, which looked exactly like the 
cages that you showed in your photographs here. And I spoke to 
the guards afterwards, correctional officers, because I wanted 
to hear from their perspective, too. It is their lives that are 
on the line here, so we have got to be sensitive to that.
    Mr. Haney. Absolutely.
    Chairman Durbin. And they said, one of them said in candor, 
``I do not think this makes the situation any better. Some of 
them are stuck in a cell with somebody who is worse off than 
they are. It is a threat to them.''
    Mr. Haney. Yes.
    Chairman Durbin. You know, sharing that cell. He said, ``So 
we kind of look at the prison overcrowding and putting two 
people in that kind of space is making the situation much 
worse.''
    He was not arguing the mental illness part of it. He was 
arguing institutional order as part of it. What has been your 
experience?
    Mr. Haney. Well, you know, unfortunately, I think that 
prisoners who are living under the kinds of conditions you just 
described have the worst of both worlds. They are 
simultaneously segregated from the normal prison population and 
the activities and programming that they might engage in, and 
crammed together in a small cell around the clock, with another 
person: simultaneously isolated and overcrowded. They really 
cannot relate in any meaningful way to the people with whom 
they are celled, and so they basically develop a kind of 
within-cell isolation of their own, and it adds to the tension, 
and the tensions then can get acted out on each other. It 
creates hazards for the people who are forced to live that way. 
It creates hazards for the correctional officers who have to 
deal with prisoners who are living under those kinds of 
pressures.
    Chairman Durbin. I am going to ask just a couple more 
questions while Senator Franken prepares his notes. I thank him 
for returning here. I know, as I said, my colleagues are loaded 
with assignments here. Thank you, Senator Franken, for coming 
back here.
    Commissioner Epps, what a story. I was trying to remember 
where I had heard of Parchman prison, and it was in a song 
somewhere, so it has got kind of a legendary reputation of 
being a pretty tough place.
    Mr. Epps. Yes, sir.
    Chairman Durbin. That the State of Mississippi, which many 
folks up north may not look to for leadership but clearly is a 
leader when it comes to this issue. Tell me, how did you pull 
this off politically? In a State that is get tough, law and 
order, what you are saying is do not be so darn mean to these 
inmates, it ain't helping things and it is costing a lot of 
money. We can punish them as they should be punished. We can 
keep order in these prisons. We can save some money in the 
process and be a little more humane. How did you pull that off 
politically? Were you forced to it by a court order or 
something?
    Mr. Epps. Well, actually, we were being sued, Mr. Chairman, 
but we sat down with the ACLU, we sat down with our 
classification experts----
    Chairman Durbin. Now, I am trying to get that together in 
my mind.
    [Laughter.]
    Mr. Epps. We did. And what happened was, you know, we did 
what we felt was right, and today I still feel like we made the 
right decision.
    Mississippi is a very conservative State. They are tough on 
crime. We are tough on crime in Mississippi. And we was looking 
at the situation in that we learned very quickly that what we 
was doing was not working. And we just had violence.
    Chairman Durbin. In what was it not working? What did you 
say to the average person in the street, here is why we have 
got to change it?
    Mr. Epps. Well, from May 2007 to August 2007, three 
homicides, highly unusual; one suicide. And in that period of 
time, that is highly unusual in any prison environment.
    In addition to that, the assaults of violence was high, you 
know, on staff. Inmates was throwing urine and feces on staff. 
They was hurting themselves. And so we had to look at the 
entire situation as it relates to what we were doing, and we 
looked at it and we found that based on giving inmates 
privileges, based on allowing inmates what we call a 
progressive step-down unit--you go from one level to another 
one with privileges--also for the mentally ill, group 
counseling and training all of our staff to include the 
corrections officers, and giving them an incentive and getting 
buy-in. And what came after that was it started working, and 
even the inmates told me, they said, ``Commissioner, we told 
you we could do it.''
    And so I feel real good about it, and we did that back in 
2008, and here we are four years later and it is still working.
    Chairman Durbin. You are President-Elect of the American 
Correctional Association, and when you take over next year, 
what are you going to take away from your experience in 
Mississippi in terms of talking to other folks who are running 
state correctional associations?
    Mr. Epps. Well, no one here, I do not believe, wants an 
inmate living next to them that just got out of maximum 
security. So what we got to decide is who we are mad with and 
who we are afraid of. I would take to them that since we 
changed Unit 32 and we closed it because we do not need it 
anymore, violence reduced by 50 percent. I would take to them, 
second, that you got to have accountability in place. When I 
started, you did one piece of paper called a detention notice, 
and you just put on there the inmate is interfering with the 
orderly running of the institution, and they went to solitary 
confinement. That is too easy. You have got to have a check and 
balance. Today it has to come up to my desk.
    In addition to that, we got to make sure that we realize 
that 95 percent of all the individuals who are incarcerated in 
Mississippi is coming back to our neighborhood whether we like 
it or not.
    And so to me as a Commissioner for the Mississippi 
Department of Corrections, or any agency head in any state, 
that is our responsibility, and that is on our report cards to 
make sure we do that.
    Chairman Durbin. Good. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    I want to thank all the witnesses. I have read your 
testimony. I am sorry I had to miss your oral testimonies. As I 
said, I did read your written testimony last night, and 
especially, Mr. Graves, thank you. What you described is just 
heartbreaking. I really admire your courage to come here and 
tell your story. I know that cannot be easy, and I wish you 
peace and that you can eventually come to grips with this. I do 
not know how you can--eighteen and a half years. But thank you, 
and thank you for your strength. I think it takes real strength 
and courage to tell your story.
    As Chairman Durbin mentioned in his opening remarks, 
America incarcerates more people per capita than any of the 
world's democracies. We have five percent of the world's 
population and yet 25 percent of the world's inmates. And I 
think we need to take a really hard look at our criminal 
justice system. I thank you, Commissioner Epps, for your work. 
And we need to make serious reforms, and that is why I support 
the Criminal Justice Commission Act which Senator Webb has been 
working on for years now. The bill would convene a commission 
of experts to make policy recommendations that would help make 
criminal justice fairer and less costly.
    Do each of you agree with this top-to-bottom review of the 
criminal justice system, that it would be useful? And what 
issues should that commission consider in making its 
recommendations? This is wide open to anyone. Mr. Haney, I see 
you are turning on your microphone.
    Mr. Haney. I enthusiastically support these 
recommendations. I think this is an evaluation that is long 
overdue. We have been in this country mired in a series of 
policies that have led to mass incarceration. The topic of 
today's hearing, I think, is an outgrowth of that mass 
incarceration movement.
    I think the kinds of reforms that many of us have testified 
about today, both in our oral and written testimony, with 
respect to solitary confinement can and should be done in 
conjunction with reform of the entire system. They are 
interconnected, obviously, and I think part of the way in which 
the system as a whole has deteriorated is what has led to the 
kind of extremes and outrages that have occurred inside 
solitary confinement units.
    We can reform solitary confinement, and we should, but it 
is part of a larger system that needs to be evaluated and 
understood as flawed in many of the same ways. We put far too 
many people in prison. We pay far too little attention to what 
happens to them while they are there. We keep them there for 
far too long, and then we disregard what happens to them when 
they try to make the difficult transition to come out into the 
free world.
    These kinds of problems are exacerbated with respect to 
solitary confinement, but they are not unique to solitary 
confinement, and so looking at the system as a whole I think is 
an extraordinarily important goal.
    Mr. Andrews. Senator, if I may, while it is certainly 
critical to examine the entire system, it would be a mistake, 
in my view, if the analysis were limited to the criminal 
justice system. I think as everyone in this room is aware, 
particularly with regard to inmates with mental illness, the 
increase in the number of individuals with mental illness who 
have been incarcerated can be directly correlated to decisions 
by the State and Federal Governments to deinstitutionalize 
Psychiatric hospitals and to reduce support for programs for 
the mentally ill throughout the country. And that occurred. It 
is directly related to the increase in the incarceration rates, 
and to the degree that this Committee's work is done in 
isolation from community-based mental health services, it will 
be missing a large part of the remedy, in our view.
    Senator Franken. I am in total agreement with that, and we 
have had testimony about, you know, the criminal justice system 
being a substitute for a real mental health policy in our 
society.
    One of the federal solutions to this problem is the 
Mentally Ill Offender Treatment and Crime Reduction Act, or 
MIOTCRA, which provides courts, police, and prisons the 
resources they need to address the special needs of people with 
mental health problems. But that bill is scheduled to expire 
next year unless Congress acts.
    Do you all agree that this law should be extended? And what 
recommendations do you have for Congress as we revisit that 
law? In other words, what recommendations do you have to 
address the overincarceration of people with mental health 
problems?
    Mr. Andrews. Well, I would like to address the issue 
concerning the failure of any independent review or right to 
access to counsel by inmates with mental illness. From the 
public defenders' point of view throughout the State systems, 
there is a substantial shortage of those positions. While all 
States, including South Carolina, are attempting to address 
that, the recent economic problems and the budgetary 
limitations have imposed greater stresses on those systems, 
which makes it difficult for public defenders to properly raise 
the issues related to mental illness that directly relate to 
the crimes with which their clients are charged.
    There is a secondary issue that has been raised by your 
previous questions related to the three particular 
recommendations that you asked of Commissioner Samuels, and 
that has to do with the due process that is available for 
inmates, particularly with mental illness, to be able to 
challenge determinations concerning solitary confinement. 
Without the availability of an independent ombudsman, or an 
independent counsel for those individuals, it is a system just 
reviewing itself. And it is the fox guarding the hen house in a 
way, that in hundreds of cases we examined, rarely, if ever, 
results in any true due process or fairness for the inmates 
themselves.
    Senator Franken. You talk about having an independent 
psychiatrist.
    Mr. Andrews. Independent psychiatrist, counselor, and 
evaluation, that is right. And, frankly, access to counsel who 
can represent the interests of these individuals who are rarely 
in a position of ever effectively representing themselves.
    Senator Franken. Sure.
    Mr. Epps. Senator, what I find as I travel throughout our 
great country is that we incarcerate so many people until the 
problem is that once we get them incarcerated, we do not have 
moneys to do what needs to be done. I would like to start more 
on the front end in that--you take Mississippi. I am housing 15 
percent of mentally ill today, and a lot of them are being 
housed, the mentally ill, in the county jails. You know, more 
support is needed on the front end for the mentally ill person 
before they get into the incarceration system. And, therefore, 
we will not be having these conversations or as much 
conversation as about the treatment and the due process.
    Senator Franken. It is, again, always being penny wise and 
pound foolish in terms of not investing this money on the 
upstream side so that we do not have all these costs 
downstream.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Franken.
    Mr. Graves, we talked about isolation and segregation and 
so forth. From your testimony, it sounds as if you were sharing 
a cell, at least some part of the time. Is that a fact?
    Mr. Graves. No, sir. At one point we were sort of like in a 
group setting. They moved us from one death row to another 
death row. We went from max to supermax. So we had a program 
that, you know, if you were--it was an incentive program that 
if you were a model prisoner, you could actually be a part of 
this work program. And as a result, you would get like more 
time out of your cell, and you could play basketball and all 
that in a group setting. And then there was an attempted 
escape, and politicians got involved, see, because the escapes, 
they were always there, but the politicians got involved in 
this escape. And because the politicians got involved, they 
decided, well, we need to move them to a supermax to show that 
we are really tough on crime. And not only did they move us to 
a supermax, but they took away everything that would be 
considered a privilege. You could no longer piddle where guys 
were piddling and making little toys for homeless children. 
That was taken away from us. You no longer had group rec where 
guys could go out and just interact with one another, whether 
they were talking about the law or talking about their family. 
You know, something that helped them maintain their sanity, 
that was taken from us.
    Everything that they could take from us that was called a 
privilege they did, and they put us in supermax, and they said, 
``You are going to stay here 22 to 24 hours a day until you are 
executed.'' And so, therefore, they moved us to that supermax, 
and we stayed there 22 to 23 hours a day, 24 hours a day from 
Friday to Monday.
    Chairman Durbin. By yourself?
    Mr. Graves. By yourself. Some guys go into solitary, they 
come back and they will place them in a cell with some other 
guy. This was before we went to the supermax. And I remember 
this one guy who was in solitary, when they brought him back, 
he had become so paranoid, they put him in a cell with someone, 
he woke up screaming. He had taken some cans, put them in his 
pillow sack, and was beating his cellmate because he started 
thinking that the guy was stealing his addresses off of his 
letters. You become schizophrenic, you become paranoid. And he 
just woke this guy up beating him and screaming and hollering. 
And he was just taken out of solitary and put in a cell with 
another person, and he ended up almost taking that person's 
life.
    So this is the effect of solitary confinement. That guy was 
fine before he went there. This whole emotion of--I was 
listening to what the gentleman was talking about solitary 
confinement and the limited time that they spent. I spent 10 
years. And I know guys who have spent 20 and 30 years, and they 
are not in touch with the real world anymore.
    So for someone to sit up here and say that it does not have 
an effect, an impact on a person's life, I say to that same 
person: ``Go live there for 30 days, and then I will listen to 
you, because right now you are just basing everything on theory 
or you are a scholar. But you go live there 30 days, and then 
when you come back, I will listen to everything you have to 
say, because I know what you are going to say. That is hell. 
That is hell. And it is driving me insane.'' And we can sit 
here, and we can talk back and forth about it intelligently, 
but the bottom line is we as American citizens are driving 
other American citizens out of their minds, and we act like 
that is OK.
    Chairman Durbin. Can I ask you a personal question?
    Mr. Graves. Yes, sir.
    Chairman Durbin. You have told us so much about what you 
have been through. Was there anything that kept you going 
spiritually through this?
    Mr. Graves. Yes. I kept my eyes on God because I said to 
myself I know who I am. I am not going to let a label define 
me. I am innocent. I am a son, I'm a father, and I'm a brother. 
And they cannot take from me what I am not going to give to 
them. They could not take my dignity, and I refused to give it 
to them. That is what kept me sane, my defiance--and my 
naivete, because I was naive in thinking that they just could 
not execute a man who did not do something.
    Chairman Durbin. Good for you. Thank you. Again, thank you 
to all of you. Mr. Andrews, thank you so much. And as I said 
before, the fact that an attorney in private practice would 
have such public sensitivity and consciousness is so critically 
important.
    Professor Haney, we could not have done this without you. 
You have done such amazing research in this area.
    And, Commissioner Epps, you have set a standard now.
    Mr. Epps. Thank you. Thank you, Mr. Chairman.
    Chairman Durbin. You set a standard. Mississippi is leading 
us in terms of where we need to be thinking about going.
    Mr. Epps. Yes, sir.
    Chairman Durbin. What a hearing. I have been through a lot 
of them. I cannot remember another one quite like this one, 
about an issue that we all kind of knew in the back of our 
minds was there, but we do not like to look at. It makes us 
feel bad. You think about the victims of crime, facing them, 
and they are saying, ``Wait a minute, it may be tough in that 
cell, but my daughter is not alive today.'' You have heard that 
one, haven't you? We all have, over and over again.
    And you think about the correctional officers who want to 
come home at night to their families, too. That is one of the 
elements. But, basically, when you step back and look at what 
happened in Mississippi, you really come to the conclusion that 
we can have a just society and we can be humane in the process. 
We can punish wrongdoers, and they should be punished under our 
system of justice. But we do not have to cross that line, and 
we all kind of know where that line is. Where we have stepped 
over it, we are no longer just ourselves in the way we are 
acting. That means taking a look at some things we do not like 
to look at or talk about. And, Mr. Graves, you made a point. 
Politicians get elected and reelected by being tougher and 
tougher sometimes, and maybe it is time for us to step back and 
say let us be smart, let us be thoughtful. When it is all over, 
let us write a record that we can be proud to tell our children 
about in terms of who we are and what we have done.
    Well, we have a better chance to do that than most here in 
the U.S. Senate. This is just a sample of the testimony that 
has been submitted of all of the groups that wanted to be here 
and wanted to testify. It is an indication, I think, of the 
fact that the time is due for us to have this conversation 
about where we are going.
    I want to thank everybody who did attend the hearing today, 
including those in the overflow room, about 80 people in this 
room and 180 in the overflow room. And it is important for 
Members of Congress that there is this level of public interest 
in the issue.
    There is a lot of work that goes on behind the scenes 
before we can come together for two hours and talk about 
something that affects so many people, so many innocent people 
and those who are not innocent but need to be treated fairly.
    I want to thank Hayne Yoon, a detailee from the Federal 
Public Defender's office; Subcommittee Counsel Mara Silver; 
Nick Deml, Subcommittee Staff Assistant; legal interns Lindsay 
Dubin and Joseph Spielberger; and, of course, my chief 
attorney, Joe Zogby, who time and again has led us into some 
very interesting hearings, and I hope productive. From the 
Committee staff: Chief Clerk Roslyne Turner; Hearing Clerk 
Halley Ross; and the following individuals from the Architect 
of the Capitol who put that cell together so we could see it: 
Assistant Superintendent Marvin Simpson, James Adkins, Alvin 
Parlett, and Paul Bosch.
    Supreme Court Justice Anthony Kennedy once wrote: ``When 
the door is locked against the prisoner, we do not think about 
what is behind it.''
    We have a greater responsibility. As a profession, as a 
people, we should know what happens after the prisoner is taken 
away. I hope today's hearing is an important first step toward 
ensuring that all prisoners are treated with justice and 
dignity when the door is locked against them.
    My staff just reminded me to make a motion to put these 
statements in the record, if there is no objection. And there 
is none.
    [The information appears as a submission for the record.]
    Chairman Durbin. If there are no further comments from 
Senator Franken, I want to thank the witnesses, all of you, for 
attending and being part of this hearing, and this hearing will 
stand adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
                            A P P E N D I X

              Additional Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                <all>


</pre></body></html>
